No.

IN THE
SUPREME COURT OF THE UNITED STATES

%

Jason Hunter Bell

//

— PETITIO

(Your Name)
vs.
o?S^?r?^^,II?VICES/MACY'S WESTFIELD MALL BROWARD
RAYMOND C. VEGA, III, individually
— RESPONDENT(S)
SHARI RHODES individually
ON PETITION FOR A WRIT OF CERTIORARI TO

THE UNITED STATES COURT OF APPEAL FOR THE ELEVENTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

JASON HUNTER BELL
(Your Name)

1801 N W 75th Ave., Apt. 204
(Address)

Plantation, FL 33313
(City, State, Zip Code)

954-404-2030
I RECEIVED(rhone Number)
JUN 1 5 2021
■SUPBEM°rR!^^

QUESTION (S) PRESENTED
1. The issue is if the “Plaintiff timely Opted out of Arbitration.
1A. Are records/software over 7 years old that are oudated and not currently i
in use,
can be used by the Defendant’s to determine whether the Plaintiff, timely “Opted
Out of Arbitration” without being authenticated, are they reliable?
IB. Issue Plaintiff provided, an affidavit with bank statement with documentation
from Macy’s Finace department/payroll division which corroborated evidence
that start date was August 01,2020 and that he timely “Opted Out of Arbitration”
2. The issue the Clerk of Court entered a motion of default against Defendant’s for
not responding to the court summons in a timely manner, Plaintiff denied due
process (SEE DOCKT# 26,27,28).
3. Issue the District Court dismissed Plaintiff MOTION OF DEFAULT against
the Defendant. (SEE DOCKET#30,3l,32) Plaintiff aggrieved by court actions.
4. Issue the Plaintiff filed a motion of default against the Defendant’s Macy’s,
Judge Ruiz dismissed the motion and reset the deadline date. This.action by the
court aggrieved the Plaintiff and denied Plaintiff due process, once again

5, Issue the Defendant’s were allowed to move forward in the case after the Clerk
of Court enter a motion of default against the Defendant for not being timely?
Question did the district court error?
6. The District Court error when Defendant did not respond to Plaintiff “Amended
Complaint” as order by Judge Ruiz. (SEE DOCKET# 40)
7. Question was it correct to allow Defendant to move forward without a Notice of
Appearance, after the motion of default which later aggrieved the Plaintiff by this
action which led to sanction by the court and denide Plaintiff due process.
8. The Court error when Defendant refused to participate twice in a joint schedule
status conference ordered by Judge Ruiz and was allowed to move forward in this
matter. Question was did the court have an inclination of favoritism in this matter.
9. Whether District Court error when it held an “ ex parte” conference with only
the Defendant Council present and Judge Ruiz. Plaintiff was aggrieved and denied
due process by the District Court.
10. That the Plaintiff has been negatively impacted by the District Court order,
that was flawed and deprived Plaintiff of due process. (SEE DOCKET# 75) order
on motion to compel by the Defendant.

11. Whether Bell meet the Justiciability Doctrine Requirement and has standing as
set forth by the Supreme Court?
12. Whether Bell established an adversarial relationship when employed by Macy’s
in a hostile workplace, EEOC complaint against the Defendant’s and also
litigation in the court shows that Bell has been aggrieved.
13. Question if Bell had standing would he meet the Supreme Court exception,
United States v. Munsingwear, Inc., 340 U S. 36 (1950)
14. Article III of the U.S. Constitution limits the jurisdiction of Federal Court cases
and controveries, the Supreme Court made an exception to “Mootness Doctrine”
that apply to Bell case. “United States v. Munsingwear, Inc., 340 U.S. 36 (1950)”
15. Whether Bell case that was dismissed by the Appeal Court on March 17, 2021,
for lack ofjurisdiction, if the Appeal Court made an error, would that make the
decision/judgment flawed. What would be status of Bell case?
16. Bell injured his foot when ordered by suppervisor Rhodes to climb a ladder to
change lights in the ceiling. Bell is disable in accordance to the ADA of 1990 as
Amended. We have causal and a concrete injury cause by the Defendant

17. The Appeal Court errored in it’s order dated March 17, 2021, it listed one of
the Defendant’s as a Ramond C. Vega III through out the order. Question is the
Appeal order executable or valid?
18. Plaintiff ask if the Appeal order justifiable or executable since it’s flawed?
19. That if the Defendant/Appellees retains the power to resume the practice or
refile at any time, a motion to compel in the federal court may deem the case
“nonmoot ”. Is the case still a live controversy?

LIST OF PARTIES
/

[v] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the casse on the cover page. A list
of all parties to the procedding in the court whose judgment is the subject of
tliis petition is as follows:

RELATED CASES
Bell v. Macy’s, No. 20-civ-60338 U.S. District Court for the Southern District of
Florida. Judgment entered May 20,2021.
Bell v. Macy’s, No. 20-13968-J, U.S. Court of Appeals for the Eleventh Circuit
Judgment entered March 17, 2021
Bell v. Macy’s, No. 20-13968-J, U.S. Court of Appeals for the Eleventh Circuit
Judgment entered April 30, 2021
Bell v. Macy s, No. 20-13968-J, U.S. Court of Appeals for the Eleventh Circuit.
Judgment entered May 10, 2021

TABLE OF CONTENTS
OPINIONS BELOW......

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLED
STATEMENT OF THE CASE.........

.,.4

REASONS FOR GRANTING THE WRIT......
CONCLUSION.....

5
6

INDEX TO APPENDICES
AI PEND1X A —Bel l v. Macy’s, No. 20-13968-J, U.S. Court of Appeals lor the
Eleventh Circuit, Appeal Dismissed due to Lack ofjurisdiction.
Judgment entered on March 17, 2021
APPENDIX B -Bell v. Macy\ No. 20-13968-J, U.S. Court of Appeals for the
Eleventh Circuit. Motion for Reconsideration of Panel Order DENIED
Judgment entered, April 30, 2021. ( SEE ATTACHED: Motion to Reconsider)
APPENDIX C - Bel l v. Macy s, No. 20-13968-J, U.S. Court of Appeals for the
Eleventh Circuit. Judgment entered. Motion to Reply to Appellee Response, Notice
of Receipt No action taken by the Appeal Court, May 10, 2021.
(SEE ATT4CHED: Motion to Reply to Appellee Response)

APPENDIX D - Beil v. Macy’s, No. 20-civ-60338 U.S. District Court for the
Southern District of Florida. Filed and entered in District Court: July 13,2020
Report and Recommendation by the Magistrate Judge Strauss.
APPENDIX E~ Bell v. Macy’s, No. 20-civ-60338 U.S. District Court for the
Southern District of Florida. Judgment entered October 13, 2020 in District Court
0rder Affirming and Adopting Report and Recommendation and setting Bench
friar ( SEE ATTACHED: Order and Published Order)
APPENDIX F- Bell v. Macy’s, No. 20-civ~60338 U.S. District Court for the
Southern District of Florida. Judgment entered: November 02, 2020 for Omnibus
Order, ( SEE ATTACHED: Older full docket text for document 81),
( SEE ATTACHED motion filed by Defendant November 06, 2020 Motion to
withdraw ), Judgment entered November 12, 2020 for Order Granting Motion to
Withdraw. { SEE ATTACHED: Order), Defendant filed on December 11, 2020
a Request tor Scheduling Order or Status Conference. ( SEE ATTACHED
Request)

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

United States v. Munsingwear, Inc., 340 U. S. 36, 39-40 (1950)
Article 111 of the U.S. Constitution, 14th Amendment
U.S. Constitution, Justiciability Doctrines
Doctrine of Standing
Lujan v. Defenders of Wildlife, 504 U.S. 555, 560-61 (1992).
Flast v. Cohen, 392 U.S. 83, 95 (1968).
Nixon v. United States, 506 U.S. 224, 226(1993).
Equitable, or Prudential Mootness Doctrine
Radian Guaranty, Inc. v. Whitfield, No. 07-83
Seligv. Pediatric Specialty Care, Inc., 127 S. Ct. 3000 (2007) (No. 06-415)
Harper v. Poway Unified School Dist., 127 S. Ct. 1484 (2007) (No. 06-595)
5th Amendment of the U.S.Constitution
Claiborne v. United States, 127 S. Ct. 2245 (2007) (No. 06-5618)
Roe v. Wade, 410 U.S. 113 (1973)
STATUTES AND RULES
28 U.S.C. § 1254(1) and state cases from 28 U.S.C. § 1257(a).

United States v. Munsingwear., Inc., 340 U.S. 36 (1950).
Roe v. Wade, 410 U.S. 113 (1973)
Radian Guaranty, Inc. v. Whitfield, No. 07-834, the Supreme Court
Harper v. Poway Unified School Dist., 127 S. Ct. 1484 (2007) (No. 06-595)
(preliminary injunction review mooted by entry of final judgment);
Claiborne v. United States, 127 S. Ct. 2245 (2007) (No. 06-5618)
(death of petitioner mooted criminal sentencing dispute).
Selig v. Pediatric Specialty Care, Inc., 127 S. Ct. 3000 (2007) (No. 06-415)
Roe v. Wade, 410 U.S. 113 (1973)
OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
F0R WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to

review the judgment below.

OPINIONS BELOW

[ ] For cases from federal courts!
The opinion of the United State
b court of appeals appears at Appendix _A__ , to
the petition and is
[ 1 reported at -

y

for p“n but *not^ « z

The opinion of the United States district court appears at Appendix D
the petition and is
f ] reported at
--------- or,
y^«TaWforP“nb“ti8™‘Tet reported,* or,
[ 3 For cases from state courts;
appears at
t ] reported at —_____

[3

zrm for pubiication'but is not * «

or,
or,

The opinion of the _
court
appears at Appendix
to the petition and is
[ 3 reported at ____
;or,
[J has been designated for publication but i
is not yet reported; or,
1 3 is unpublished.
1.

to

J

1

JURISDICTION

C 3 For cases from federal courts;

wS jfiSSns;^te,s Court of Appeals decided my .case
3 N° P*®0" for rel>«»ring was timely filed in my case.
^ Appeals'rTthe™iS^ng^ate8 AffllL 30.^02United State? Court of
order denying rehearing appearT^Ap^iSTF""---- ’ 331(1 a CGpy ofthe
to and^dSn?tJme t0 me the Petition for a writ of certiorari
in Application NoTZHa^

*—" (date> on.-----

The jurisdiction of this Court is invoked under 28 U. a

was planted
— (date)

C. § 1254(1).

13 For cases from state courts;
my case was
I 3 A timely petition for rehearing
appears at Appendix
f 3 An extension of time to file the
petition for a writ of certiorari was granted
to and including..
—Application No. ZTa~" ~ (date) on
(date) in

J

The jurisdiction of this Court i
18 invoked onder 28 U. a C. § 125%),

2

t

£i

STATEMENT OF THE case
1. November 13, 2018, Mr. Bell filed his EEOC c
ompia,® in person in Miami.
2. o, 1.

W Ul

B

of
ion

J
“-*’■»« ~ «-» „„M
records from the University of Miami
3- The EEOC representative,

refused the SSI Disability

medical records fr°ifr University of Miami Orth
msistence from Mr. Bell as this was ^

approval letter and the

opedic Dept even after much

.
easiest way to prove his disability.

4. The EEOC rep instructed Mr. Bell that his documents
wasn’t needed and that
someone would call him. The next week aphone in,
erview was held.
5. Eventually there was a phone i
interview about my EEOC case, but nothing was
»««%« * EEOC. n. ss,
w
^
again, nor were the medical records reviewed. No
witnesses were contacted.
6- April 22,2019 Macys after previously

requesting for a time extension,
provided their response to Mr. Bell’s EEOC claim/
complaint.

4

H4

6A.

6B. A CO worker was willing to provide a stateme
nt to EEOC that he and Beil was
working their second job that d
ay and time.
6C. The exhibits that Bell provided to EEOC
with his reply to MACY’S
were the same weekly clock in ti

response

mes that Macy’s provided i
111 their response, that
showed and proved that Bell didn’t work that day.
7 ■ The Report included falsified

statements from managers Ms. Rhodes and
Mr. Vegan, in their response to EEOC
8.

...«„ Uvoaomo

^ ^

“ uacY's »“ ™ L»*» r Pai.,. .ta s,
statements. EEOC ignored his reply

signed off on their

MAC VS

response to his complaint.
9. The response included the sam

e exhibitsdljat MACY’S used
but pinpointed the
..■accuracies of their statements. i„ the fabricated d
ocuments they gave EEOC
l'on°dnJUne26’2°,9’MACY’Shi

red a crew to fix the OSHA

violations men-

in the whistle blower complaint Bell re

ported to his supervisors and EEOC
Bell’s reported the above to EEOC in his
response May 2019. (Visual proof of this
was later added to Mr. Bell’s federal 1
awsuit, filed on February 14th, 2020) in an
affidavit with pictures, of workers
correcting the OHSA violations Bell
reported.
11. EEOC would later redact parts of Bell

s response when submitted to MACY’S

(Visual proof of this is available i
in the (Courts Exhibits 1,23,4,5,

6,7).

2. November 18,2020, EEOC granted Mr. Bell,
a right to sue letter while
dismissing his claims due to the i
inability to authenticate his disability claim,
(See visual proof in exhibits submitted to District Courts)
13. This further proves that EEOC never i
er investigated Mr. Bell’s claims or even
attempted to call SSI to verity his disability.
14. February 14,2020, Mr. Bell filed his lawsuit against MACY’S for wrongful
termination and violation’s of ADA,

(Case NO. 20-60338-Ruiz/Strauss).

15, Judge Ruiz dismissed the Plaintiff ori
original complaint and order that the
Plaintiff had six days to submit an Amended C
omplaint to the District Court or the
case would be dismissed (DOCKET * 24) while Defend
ants where in default.

H4

16. Defendants were in default May 04,2020, (DOCKETS# 26,27,283031,32)
never reprimanded by the court. The court reset the deadline on May 13

, 2020,

(NO DOCKET#). Defendant'ss joined
i
the case on May 18,2020. (DOCKET#38)
17. Defendants never filed a Notice of Appe

Rule procedure and once again Defendants

arance which is a mandatory Federal

were never reprimanded by the court.

^federal nrnr^}

18. This pattern of turning a blind eye to

every transgression Rom MACY’S,
Defendant’s would be a recurring theme throughout the proceedings.
19. Mr. Bell was denied due process because the defend

ants would not participate
m the joint status con ference as ordered by Judge Ruiz. (SEE DOCKETS# 61)
20. The defendants relitsed to participate in the joint status conference ordered by
Judge Ruiz on 2 different occasions and was never reprimanded for it, by the
the court (SEE DOCKET#34,61)
20A. However the Defendant’s did participate in a Arbitration

pre trial Status

Conference “ e* parte” (SEE DOCKET#*!) when Bell submitted an appeal.

21, The defendants

were even gra„,ed then motion for a time extension after ai

ready being in default (5/22/2020). (SEE CLERK O

F COURT MOTION

DEFAULT, (DOCKETS# 38 )
22, Defendants provided the wrong addr
ess to receive the motions and responses
from Bell. (SEE DOCKET# 50)
23. Since the defendants never filed an official N
otice of Appearance, the only
address that was available was the one
in the signature of the defendant ’s email.
23A. Defendants refused to respond to Judge Ruiz's order (SEE DOCKET#40)
26. Judge Ruiz even sanctioned Mr. Bell,

forcing him to pay a $25 fee to the courts
when he was aware that the only income Mr. Bell had w
as a monthly disability
check from Social Security. (SEE DOCKETS# 70,71)

reasons for grant

ENG THE PETITION

That the Court has deemed the PI
Plaintiff appeal/case to be moot.
the Court states in it’s order it no longer has the p
ower to entertain die Plaintiff
legal claims and must dismis
S the complaint due to lack ofjurisdiction
That tlie U.S. Supreme Court h
as several exceptions to the Mootness Doctrine.
The Justiciability 0
octrines Under Article in of the
U.S. Constitution,
That the jurisdiction of federal
courts are limited to actual,
ongoing cases and
“live” controversies. That th
e constitutional requirement under Article 111
of the
U S. Constitution, “jjusticiability doctrines”,
allow Plaintiff the right to invoke in
federal court actions that could
preventKaintilTs frommaintaimnga,egai claim
against the Defendants.
That Plaintiff has invoke his rights under the “i
justiciability doctrines” by film
8
a Motion for the Court to Reconsider his
appeal and states that he was injured by
the Defendants, when he was (A) ordered to claim
a ladder at work by his
supervisor and suffered (1) an injury ,0 his feet and had
an operation at the
University of Miami departm
ent of Orthopedics in October of2020, and is
schedule for future
SUrgCry dUe 10 my
® wrongful termination due to being
disable. (3) Defend

ants took away reasonable accommendation which

Plaintiff •njury.
ini
(4) That the Defendants action

5

I

caused

^auMteJumr to the

Plaintiff, that led to additional surgery.
The Plaintiff is sti]i suffering from ^ ^ ^ ^
expenses to include
rehab (SEE Docket #i Plaintiff orfei
ngmal complaint and (SEE Docket # 25,
amended complaint ordered by the district court).
(B) That the supervisor and mana
-gement was responsible for a hostile and
unsafe
working environment. (SEE Docket #1 and 25,
with exhibits and medical
documentation). (C) The Plaintiff
request from the Court judicial relief by

8 «. «, w » a.

(D, ^ fc am ^

»“>«KI «bit«lon
prejudice.

sthe

instruction to dismiss with

(E) Plaintiff would like to move forward with
complaint against the Defendant
Macy's for wrongful termination due to a disability. (F) Plaintiff
request the
redressability of his physical injury and expenses for
past, present and future
medical expenses caused by the Defendants.
Lujan v. Defenders of Wildlife, 504 U.S. 555,560-61 (1992).
The four elements of the justiciability doctrines th
at are available to the Plaintiff to
maintain his legal claim against the Defendants in Court are. States Plamtiff has
standing because plaintiff is the proper party ,0 assert a cla
,m in federal court in
this matter because he was aggrieved by the Defe
ndants.

Z

The Plaintiff case is Ripe because the facts of the
case has matured into an
existing substantial controversy warranting judicial
intervention. Plaintiff case is
justiciable, because the legal claim may be resolved only by the courts.
(Flastv. Cohen, 392 U.S. 83,95 (1968). (Nixon
v. United States, 506 U.S. 224,
226 (1993). The Plaintiff claim is j
usticiable and can be solved in court.
That Equitable, or prudential mootne
2ss, has been referred to as the ",
cousin of the
mootness doctrine* and described as relating to the court’s discretion
in matters of
remedy and judicial administration. Unlike Article III
mootness, it addresses not
the power to grant relief but the
court s discretion in
i the exercise of that power. In
some circumstances, a controversy, is sometime not actual!
y moot, however it is
so attenuated that considerations of prudence
and comity for coordinate branches
of government counsel th
e court to stay its hand, and to withhold relief it has the
power to grant.
The Supreme Court has recognized several exceptions to the mootness doctrine
(SEE In Radian Guaranty, Inc.

K mi‘field’ No. 07-834, the Supreme Court

ordered the Third Circurt’s dec.sion in tha, case vacated based on a

old

Supreme Court decision, United States v. Mi
Munsingwear, Inc., 340 U.S. 36 (1950).
that, if found to apply to a case, which would permit federal
court adjudication of
the dispute. Some disputes or injuries
may have the potential for recurrence, but
always fail to last long enough to permit federal
judicial review.

3

That in the Defendant response t0 the pJaintlff mo(
ion to reconsider alledge that
theoretically the Defendant/A
ppeJlees as been aggrieved not the Appellant,
However the Supreme Court don’t agree with
the Defendant/Appellees theory.

The Supreme Court states that:
if a defendant voluntarily termin

ates the allegedly unlawful conduct
or motion to
compel after the lawsuit has been filed b
ut retains the power to resume the
practice
or refile at any time,
a motion to compel the federal
court may deem the case
“nonmoot The Court will m
give the Defendants the ability t0
resume the motion
to compel arbitration, if the Court don’
on t reverse or vacate the lower court
judgment and remand with directi
on to dismiss with prejudice,
The burden of persuading the
court that a case has b
een mooted by the defendant’s
voluntary actions lies with the
party asserting mootness, and the standard for such a
determination is strict. However sub
sequent events make it absolutely clear that the
allegedly wrongful behavior of the Defendants
can reasonably be expected to recur
based on the Defendants past actions against the Plaintiff.
Selig u Pediatric Specialty Care, Inc.,
(mootness due to respondents’

ms. Ct. 3000 (2007) (No. 00-415)

unilateral dismissal of complaint);

This exception is supported by the Supreme Court b
ecause, in addition to
m having the legality of the practices

H

settled, Munsi
ngwear addresses what to do

With a court of appeals decision when the case b
ecomes moot while it is pending
on review by a higher court (whether the S
upreme Court or a court of appeals).
In Munsingwear, the Supreme Court held that,
where intervening mootness
prevents appellate review of the underlying decisio
n, the decision in the lower
court ordinarily should be vacated. The established
practice of the Court in dealing

■ *a -1*" * “»""*
”a

™

10 Ih. Cow „ pron- ,

n on the merits is to reverse or vacate
the judgment of the lower court and remand with
a direction to dismiss with
prejudice.” 340 US. at 39.
Harper v* Powa>' Unified School Dist, 127 S.
liminary injunction review mooted b

Ct. 1484 (2007) (No. 06-595) (pre

y entry of final judgment); Claiborne v.

United States, 127 S. Ct 2245 (2007) (No. 06-5618) (death

of petitioner mooted
criminal sentencing dispute). The Supreme Court explained that
vacatur due to
intervening mootness is an equitable doctrine designed to
rescue a losing party
Whose only opportunity to have an adverse judgment set aside h
as been frustrated
by either the “unilateral action of the party who prevailed in the lower court” or
the “vagaries of circumstance.” Id. at 25 (“Vagaries of circumstance”
the death of the petitioner in a case challenging

would include

a criminal sentence, as occurred
m Claiborne, or the graduation of a high school student,
which is part of what

mooted Harper (the preliminary ini
injunction petition was also mooted by the district
court's entry of final judgment tn.the case),, the Appellant pray and seek relief
from this Honorable Court and

request the Court to remand the lower court by foj.

-lowing the precedent set by the S

upreme Court in matters such as this which has

come before the Court this day, vacate the order by Judge RuiZ based on the
erroneous Report and Recommendation of the Magistrate Judge Strauss.
That the lower court rei
reinstate all Appeliant/Plaintiff responses that

were stricken
by the court that contain vital evidence to the Plaintiff case t
to move forward
through the lower court for the case is
ripe for litigation for at present their is a
purely legal issue, that only can be resolved by the Courts.
That the Court as in accordance with the Supreme Court has stated that a
(the Defendant) a party that has voluntarily forfeited his legal remedy by the
ordinary processes of appeal or certiorari, thereby surrendering his

claim to the.,.

remedy of vacatur.
Such cases are therefore not unreviewable, but simply
unreviewed as a result of the losing party’s own choice
ruled that it is inappropriate to clear the path for
between the parties when the Defendant

• Likewise, the Court has

future relitigation of the issues

renders the case moot by voluntarily

agreeing to permanently withdraw its claims

against the Plaintiff. In such

instances, rather than wiping the slate clean in the
Munsingwear, the Court has ordered that the
refiling so that it cannot be

manner contemplated by

case be dismissed with prejudice to

resumed in this or any subsequent action.

In Munsingwear, the Supreme Court held that, where
intervening mootness
prevents appellate review of the underlying decision, the decision in the lower
court ordinarily should be vacated,

The Appeal Court jurisdiction is generally not

limited to the final decisions of the District C
ourt, however the Appeal Court can
make an exception in this case but

chose not to. That the Supreme Court has

recognized several exception to the “Mootness Doctrine”
Which states that the “Equitable or Prudential Mootness Doctrine”

relates to the
Appeal Court discretion in matters of remedy and judicial administration.
That the United States v. Munsi
smgwear, Inc. 340 U.S. 36 (1950).” has set an
precedent which has stood for over 71 years. That the Supreme Court has

ordered
«ha. a case be dtsmissed with prejudice to refiling s0 that i, cannot be resumed in
this or any subsequent action.

• CONCLUSION

That dismissing the case with prejudice thereby prevents the regeneration of the
controversy if the Defendant later changes its mind and attempts to relitigate the
dismissed claims in federal court. UNITED STATES v. MUNSINGWEAR, INC.

The petition for a writ of certiorari should be granted.
Respectfully submitted,

(7

Date:

\ 0,

6

